<html>
<title> - HEARING ON EXAMINING STRATEGIES TO REDUCE GREENHOUSE GAS EMISSIONS AT U.S. COLLEGES AND UNIVERSITIES</title>
<body><pre>[Senate Hearing 110-1244]
[From the U.S. Government Publishing Office]



                                                       S. Hrg. 110-1244

 
                   HEARING ON EXAMINING STRATEGIES TO
                    REDUCE GREENHOUSE GAS EMISSIONS
                   AT U.S. COLLEGES AND UNIVERSITIES

=======================================================================

                                HEARING

                               before the

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                             APRIL 3, 2008

                               __________

  Printed for the use of the Committee on Environment and Public Works


      Available via the World Wide Web: http://www.access.gpo.gov/
                            congress.senate



                                 ______

                   U.S. GOVERNMENT PRINTING OFFICE 
85-526                     WASHINGTON : 2014
____________________________________________________________________________ 
For sale by the Superintendent of Documents, U.S. Government Printing Office, 
http://bookstore.gpo.gov. For more information, contact the GPO Customer Contact Center, U.S. Government Printing Office. Phone 202�09512�091800, or 866�09512�091800 (toll-free). E-mail, <a href="/cdn-cgi/l/email-protection" class="__cf_email__" data-cfemail="3c5b4c537c5f494f485459504c125f535112">[email&#160;protected]</a>  
                               __________

               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                       ONE HUNDRED TENTH CONGRESS
                             SECOND SESSION

                  BARBARA BOXER, California, Chairman
MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     JOHN W. WARNER, Virginia
THOMAS R. CARPER, Delaware           GEORGE V. VOINOVICH, Ohio
HILLARY RODHAM CLINTON, New York     JOHNNY ISAKSON, Georgia
FRANK R. LAUTENBERG, New Jersey      DAVID VITTER, Louisiana
BENJAMIN L. CARDIN, Maryland         JOHN BARRASSO, Wyoming
BERNARD SANDERS, Vermont             LARRY E. CRAIG, Idaho
AMY KLOBUCHAR, Minnesota             LAMAR ALEXANDER, Tennessee
SHELDON WHITEHOUSE, Rhode Island     CHRISTOPHER S. BOND, Missouri

       Bettina Poirier, Majority Staff Director and Chief Counsel
                Andrew Wheeler, Minority Staff Director


                            C O N T E N T S

                              ----------                              
                                                                   Page

                        THURSDAY, APRIL 3, 2008
                           OPENING STATEMENTS

Klobuchar, Hon. Amy, U.S. Senator from the State of Minnesota....     1
Craig, Hon. Larry E., U.S. Senator from the State of Idaho.......     3
Sanders, Hon. Bernard, U.S. Senator from the State of Vermont....     4
Whitehouse, Hon. Sheldon, U.S. Senator from the State of Rhode 
  Island.........................................................     5

                               WITNESSES

Birgeneau, Robert, Chancellor, University of California, Berkeley     7
    Prepared statement...........................................    10
Johnson, Jacqueline, Chancellor, University of Minnesota, Morris.    31
    Prepared statement...........................................    34
Levin, Richard C., President, Yale University....................    75
    Prepared statement...........................................    78


 HEARING ON EXAMINING STRATEGIES TO REDUCE GREENHOUSE GAS EMISSIONS AT 
                     U.S. COLLEGES AND UNIVERSITIES

                              ----------                              


                        THURSDAY, APRIL 3, 2008

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The full committee met, pursuant to notice, at 10 a.m. in 
room 406, Dirksen Senate Office Building, Hon. Amy Klobuchar 
(member of the full committee) presiding.
    Present: Senators Klobuchar, Craig, Sanders and Whitehouse.

           OPENING STATEMENT OF HON. AMY KLOBUCHAR, 
            U.S. SENATOR FROM THE STATE OF MINNESOTA

    Senator Klobuchar. The hearing will come to order.
    Senator Boxer is going to be joining us soon, and she asked 
me to sit in and begin this important hearing, which is 
entitled Examining Strategies to Reduce Greenhouse Gas 
Emissions at U.S. Colleges and Universities.
    We are very pleased that we have our guests here today. We 
have Robert Birgeneau, who is the Chancellor of the University 
of California at Berkeley. I will say, Dr. Birgeneau, that I 
saw the other day Mark Yudof, who is going to be heading up the 
University of California system, who previously left the 
University of Minnesota where he was much loved, and then went 
to Texas. So you are very lucky to have him there. He also 
would host pancake breakfasts every so often. Maybe that was 
more of a Minnesota thing. I don't know what he will do in 
California, maybe granola. I don't know.
    We also have Dr. Jacqueline Johnson with us. She is the 
Chancellor at the University of Minnesota at Morris. We are 
pleased to have her here. I visited the campus on my tour of 
all 87 counties in Minnesota, and was so impressed by the work 
that they are doing with the wind turbine and everything else, 
and really the whole university community is a part of it. I 
think it will give us a different perspective, more of a rural 
perspective of what colleges and universities are doing.
    And then we also have Dr. Richard Levin here from Yale 
University. I was honored to speak on climate change in front 
of the Yale trustees about a month ago. I know that Yale has 
been doing great work in this area as well.
    I thank each of you for being here today. I believe each of 
you has recognized the challenges of climate change, and have 
taken steps toward reducing the universities' carbon footprint, 
doing something about it, working with not just faculty, but 
also students and alumni to make sure that they understand that 
this is so important to our entire world going forward.
    I know that all of you have had unique initiatives. 
President Levin, I have gotten the information on what you have 
done, and Yale has been committed to reducing greenhouse gas 
emissions on campus to 10 percent below 1990 levels by the year 
2020. What interests me most, and I know interests some of my 
colleagues who are going to be coming shortly, is the fact that 
Yale plans on expanding its 13.5 million square foot campus by 
nearly 20 percent during the same time. I think this 
underscores this idea that you can expand economically and 
still be able to reduce carbon dioxide. In fact, with new 
buildings it is probably easier to do.
    Chancellor Birgeneau, I understand that you have made a 
similar commitment, and we look forward to hearing about some 
of the climate research programs at Berkeley.
    As I mentioned, Chancellor Johnson, you have been doing 
great work there, and the fact is that by 2010, your campus 
will be carbon-neutral. But what is even more impressive is 
that the University of Minnesota at Morris has achieved this 
carbon neutrality completely through onsite generation.
    Today's hearing is about more than specific greenhouse gas 
reduction strategies. It is also about how colleges and 
universities can have a unique role to play in this important 
work. I truly believe that we have to act quickly to develop 
the technologies and strategies to address climate change 
before other nations do. Not only is it an environmental 
necessity and obligation, but it is also an economic necessity. 
We have seen first-hand in our State the wind turbines all 
over. We just went to No. 3 in the Country with wind energy, 
and it has really been a boon to our rural economies in 
Minnesota.
    By eliminating our own greenhouse gases and conducting 
vital climate researches, colleges and universities across the 
Country are leading the fight against global warming. They are 
educating and training the next generation of engineers, 
architects, business leaders and scientists to build and 
compete in a low-carbon economy.
    I often use the example of the space race and Sputnik and 
all of the great technology that came out of our colleges and 
universities and those devoted to this research just because we 
wanted to put a man on the moon. We can do the same thing here 
with this challenge that we are faced with. We did everything 
from developing CAT scans to space sticks, which my family used 
on hiking trips in Wyoming, Senator Craig, in the western part 
of our State.
    Senator Craig.
    [Remarks made off microphone.]
    Senator Klobuchar. What?
    Senator Craig.
    [Remarks made off microphone.]
    Senator Klobuchar. Yes. Well, of course.
    This all came out of, again, the Nation's commitment to 
doing something to move our Country ahead.
    The National Renewable Energy Labs have identified a 
shortage of skilled workers as one of the leading barriers to 
deployment of clean energy technologies. High schools, 
vocational schools, junior colleges, labor management 
apprenticeship programs and, yes, colleges and universities 
like yours will be all called on to prepare our young people to 
fill the gap.
    So I look forward to hearing about the ways in which 
colleges and universities are incorporating climate matters 
into their curriculum and what more can be done. I also look 
forward to learning more about how successes achieved on 
campuses are being scaled up to the community and State level 
and what more can be done to accelerate that process.
    So I thank each of you for being here.
    Senator Klobuchar. I know my colleagues would like to make 
brief opening remarks.
    Senator Craig.

           OPENING STATEMENT OF HON. LARRY E. CRAIG, 
              U.S. SENATOR FROM THE STATE OF IDAHO

    Senator Craig. Madam Chairman, thank you very much.
    And to all of you chancellors who have joined us today, 
thank you for being here and participating in this hearing.
    I must say at the outset, Madam Chair, that the hearing 
came as a bit of a surprise in relation to its timing. I say 
that because it was very difficult for all of our staffs on 
this side to properly scope and get ready for it. So it has 
reduced me to suggesting and this is to you, Dr. Levin that 
this is an alumni gathering for Yale, and probably that in 
itself makes it worth turning on the lights and assembling the 
staff, because we have obviously the Chair as an alum as well 
as committee members Senator Lieberman, Senator Clinton and 
Senator Whitehouse. So congratulations. That in itself is worth 
the gathering.
    But I must say, Madam Chair, that in looking at the 
totality of what universities are doing today, it is important 
that we get it right. Again, I look at the timeliness of the 
meeting and the proper preparedness that went into it. I am 
looking at a memo that suggests four universities tied to the 
Chicago Climate Exchange, and they missed four for some reason. 
They missed my University of Idaho. They missed Tufts. They 
missed Hadlow College, and they missed the University of 
California at Irvine.
    So let's get it right as we talk about these critical and 
important issues, and that in no way belittles the universities 
that are before us today. Michigan State, they said it was the 
University of Michigan.
    I happen to watch these things very closely, as does my 
staff. Timeliness and preparedness are critical to good scoping 
in the preparation of a hearing. The President of my alma mater 
at the University of Idaho brags that the University of Idaho 
has the lowest carbon footprint per student of any school in 
the Exchange. We are very proud of that because Idaho itself 
has the lowest carbon footprint of any State on a per capita 
basis. Idaho will further reduce its emissions by 6 percent, 
not by 2020, but by 2010, on the guidelines of the membership 
of the CCX in Chicago.
    With that said, I will yield my time, because as we get to 
the testimony and the questions, the role that universities 
play in educating and training the work force that the Chairman 
has spoken to is critical. We know right now that we are 
stressed out as we try to bring clean energy online from the 
nuclear side of the equation, that we simply don't have the 
talent that we need and the skills necessary, and that is going 
to take time to make sure that can come online appropriately 
and safely, so those roles are played dramatically and very 
importantly by our universities.
    I look forward to your testimony.
    Thank you, Madam Chair.
    Senator Klobuchar. Thank you, Senator Craig.
    Just to clarify, we did try to have a geographic 
representation with the East, the Midwest, and the West, with a 
private and a public school. I talked to Chairman Boxer about 
having an additional hearing. I understand that we did offer 
your side to provide a witness, and we can do it again with 
more timing.
    Senator Craig. Timing is important for preparedness and 
accuracy. You are absolutely right.
    Senator Klobuchar. OK. I would also note for the record 
that President Bush also went to Yale.
    Senator Craig. Oh, dear.
    [Laughter.]
    Senator Klobuchar. We have Senator Sanders here.
    Senator Sanders. I did not go to Yale.
    [Laughter.]

          OPENING STATEMENT OF HON. BERNARD SANDERS, 
             U.S. SENATOR FROM THE STATE OF VERMONT

    Senator Sanders. Thank you very much for being here. This 
is in fact an important hearing. The reason that it is an 
important hearing is not just that colleges and universities 
all over this Country, some are smaller, some are larger, 
consume a lot of energy, and like every other entity, we want 
to see them become more energy efficient. But there is 
something obviously unique about colleges and universities, and 
that is they are educating the future of this Country.
    So to the degree to which you can involve your student body 
in greening your campuses, developing sustainable energy, 
moving toward energy efficiency, what you are doing is you are 
educating an entire new generation who will leave your schools, 
go out into the world, and take the lessons that were learned 
on your campuses.
    That, if I may mention, Madam Chairman, is one of the 
reasons why I, in the recently passed energy bill, introduced a 
provision which will provide financial support to institutions 
of higher education as they look to increase more onsite 
renewable energy and to become more energy efficient. So we now 
have within the energy bill a provision that should help 
potentially over a period of time every campus in this Country.
    This program supports institutions of higher education 
through multiple grant opportunities. Taken together, the 
projects to be funded through the program must develop 
renewable energy facilities, improve the energy efficiency of 
buildings, or promote innovative energy sustainable projects.
    One of the most exciting parts of this new program is that 
the colleges and universities must involve their students and 
local communities in their efforts. That is when you apply for 
a grant, that is one of the components of the grant. So you 
work with your students in greening up your campuses.
    The other part of the provision is that then you have to 
tell your communities, your cities, your States what you are 
doing because colleges and universities virtually all over this 
Country play a unique role. People look to you, and it is not 
only the football game or the basketball game. You develop an 
energy-efficient project all over the State, you will get the 
publicity, and people will say, wow, Yale did something really 
extraordinary, what can we learn from that? Or we have 
something in Minnesota or wherever.
    As I mentioned, we have that provision in law, and right 
now, along with Senator Kerry, we are requesting support from 
our colleagues to fully fund that provision. I want to thank 
one of our witnesses, Jacqueline Johnson, the Chancellor of the 
University of Minnesota at Morris, for signing a letter which 
has dozens and dozens of signatures on it, seeking full funding 
of this legislation. And I want to thank my colleague, Senator 
Warner, for supporting the efforts to get full funding as well.
    I want to also thank all of our witnesses for being here 
and for the good work that you are doing.
    So we see that the passage of this provision and the 
funding of this provision could provide the kind of funds that 
will really increase the efforts that many campuses are making 
in America and put you in the forefront of moving this Country 
away from fossil fuels to energy efficiency and to sustainable 
energy.
    Madam Chair, thank you.
    Senator Klobuchar. Thank you very much, Senator Sanders.
    Senator Whitehouse has joined us.

         OPENING STATEMENT OF HON. SHELDON WHITEHOUSE, 
          U.S. SENATOR FROM THE STATE OF RHODE ISLAND

    Senator Whitehouse. I am delighted that we varied from the 
Yale alumni program briefly to have Senator Sanders say a few 
words, but I want to welcome the panel and particularly express 
my appreciation to President Levin. Not only am I an alum, but 
I am a parent at the moment. I am very pleased to see you here.
    My daughter reports about how energetically her 
sustainability class is working with the university on issues 
that actually pertain to the university's policies. So the 
manner in which the university has combined its educational and 
management roles around this I think is very helpful and I 
appreciate it very much.
    I hope we all recognize how quickly Yale graduates can move 
up in the Senate. We have a brand new freshman Senator, senior 
to me, but still a freshman Senator who is chairing the 
hearing. So it is a great thing.
    I wanted to just add to the record. I will ask unanimous 
consent that my full statement be made a part of the record. 
But I would like to note that Ruth Simmons, the President of 
Brown University, was in Washington yesterday giving a speech 
to the Economic Club of Washington. I went to hear her remarks. 
She said this: ``Who would have predicted a century ago the 
environmental degradation that has led to climate change? Yet, 
science stands ready to identify problems, raise awareness, 
change behavior, and bring solutions to bear. This is the 
miracle of what the modern university and its research capacity 
offers the world today. What an evolution from the narrow 
missions of colonial universities.''
    So I couldn't agree more. I am delighted that you all are 
here. I want to take a moment to brag on the work that Brown 
University is doing and the University of Rhode Island. They 
are both heavily engaged in this. Brown has been at work on 
green initiatives I believe since 1991, and has been a real 
leader in this area. All of our colleges participate. Even one 
of our smaller colleges, Roger Williams, is now running its 
shuttle bus service on the recycled canola oil from its fryers 
in the dining halls.
    So Rhode Island is keenly interested, and I appreciate very 
much the role of universities, and I thank all of you for being 
here.
    Thank you, Madam Chair.
    [The prepared statement of Senator Whitehouse follows:]

          Statement of Hon. Sheldon Whitehouse, U.S. Senator 
                     from the State of Rhode Island

    Thank you Madam Chairman, and thank you to all of the 
members of the panel for being here today. I'd like to extend a 
special hello and thank you to President Levin of my alma 
mater, Yale University. I recall my undergraduate career there 
very fondly and I am proud that my daughter Molly is a freshman 
at Yale today. I am also greatly pleased to see this great 
institution at work to combat global climate change. The 
universities represented here today are educating the next 
generation of leaders who will help reverse the tide of global 
warming, and at the same time are leading by example by 
minimizing their own carbon footprints. I know these efforts 
required difficult choices, and I commend all the panelists for 
their institutions? commitment to their students and our 
environment.
    America's universities are uniquely positioned to lead the 
fight against climate change. Yesterday, I attended a speech by 
Dr. Ruth Simmons, the President of Rhode Island's own Brown 
University, in which Dr. Simmons spoke eloquently on the very 
issue that brings us here today. She stated:

    ``Who would have predicted a century ago the environmental 
degradation that has led to climate change? Yet, science stands 
ready to identify problems, raise awareness, change behavior, 
and bring solutions to bear. This is the miracle of what the 
modern university and its research capacity offers the world 
today. What an evolution from the narrow missions of colonial 
universities!''
    I couldn't agree more. I'm especially proud that colleges 
and universities in Rhode Island have taken critical steps to 
transform their campuses into models of energy efficiency and 
carbon neutrality. We in the ``Ocean State'' regard our 
environment and our responsibility to protect and preserve it 
as a nearly sacred cause. So it makes sense that our 
institutions of higher learning should be models for the way we 
think and act about climate change. They make me and all Rhode 
Islanders extremely proud.
    Brown University innovated the ``green campus' revolution, 
starting in 1991 with its ``Green Initiative'' Seventeen years 
later, Brown has achieved one of the lowest energy densities 
and carbon footprints among universities of its size. With its 
recently inaugurated Community Carbon Use Reduction Program, 
Brown plans to do even more: reduce its greenhouse gas 
emissions to 42 percent below 2007 levels by 2020, and up to 50 
percent below that threshold for all new construction on 
campus.
    Similarly, the University of Rhode Island, in Kingston, has 
also taken significant steps to reduce its carbon footprint and 
become more energy-efficient. This winter, URI announced that 
it would undertake a massive upgrade of its operational 
systems, from lighting to heating to water management. These 
upgrades will save the university seven million kilowatt hours 
of electricity and forty-two millions of pounds of steam per 
year. Meanwhile, the college's Renewable Energy Club has been 
studying the feasibility of wind turbines and other alternative 
energy generation that could make the campus even more 
sustainable and further reduce its footprint. It's a great 
example of a university attacking the problem at many different 
levels, the administration and students matching each other's 
commitment to change.
    Our smaller institutions are also busy creating innovative 
solutions that will help better meet the needs of the planet.
    Roger Williams University, in the town of Bristol on the 
shores of Narragansett Bay, now runs it shuttle bus on 100 
percent recycled canola oil taken from its cafeteria's fryers. 
This alone will keep 2300 gallons of diesel fuel from being 
burned, and cut the shuttle's CO<INF>2</INF> emissions by 75 
percent. It's a small step, but one that shows the innovative 
and creative thinking that have become the hallmarks of Rhode 
Island's college and universities in this area.
    America's universities give our young people the tools and 
the opportunities to live happy, healthy, and productive lives. 
It makes sense, then, that while these institutions are 
preparing their students for the future, they should also do 
everything they themselves can do to make sure that our planet 
will be in a condition to be enjoyed and enriched by these 
students. Brown, URI, Roger Williams, and other Rhode Island 
institutions have all made that commitment, and it is essential 
that more and more colleges take up this cause and begin to 
look for ways in which they can contribute to our fight against 
global climate change.
    I thank the Chairman again for bringing this excellent 
panel together today and I look forward to hearing the 
testimony from our witnesses.

    Senator Klobuchar. Thank you very much.
    I think each witness has 5 minutes. We will start with Dr. 
Birgeneau.

   STATEMENT OF ROBERT BIRGENEAU, CHANCELLOR, UNIVERSITY OF 
                      CALIFORNIA, BERKELEY

    Mr. Birgeneau. I hate to admit it, but both I and two of my 
daughters are Yale graduates also.
    [Laughter.]
    Senator Craig. Oops. Now, this is taking it much too far.
    [Laughter.]
    Senator Klobuchar. OK, look what you started, Senator 
Craig. My husband went to the University of Minnesota.
    Senator Craig. Oh, come on now. You trumped me with George 
W.
    [Laughter.]
    Mr. Birgeneau. I might also point out, having had to 
finance my two daughters through Yale, that fees at Berkeley 
are $7,200 a year.
    [Laughter.]
    Mr. Birgeneau. Senator Boxer, Senator Klobuchar, and other 
Senators and members of the Committee, thank you for giving me 
the opportunity to speak to you today on one of the most urgent 
issues facing our State, our Nation and our globe.
    Climate change caused by our use of carbon fuels is one of 
the most significant and pressing challenges of our time. At UC 
Berkeley, which is one of the Nation's preeminent teaching and 
research universities, we are aggressively addressing climate 
change through our teaching and research, as well as through 
policy and collective and individual actions on our campus.
    The State of California has demonstrated national and 
international leadership in committing to reduce its greenhouse 
gas emissions. It has legislated that the State's global 
warming emissions be reduced to 1990 levels by 2020, which is a 
25 percent cut in greenhouse gases, and 80 percent below 1990 
levels by 2050. UC Berkeley is at the forefront of energy 
research and specifically any energy research and 
implementation to make these goals viable.
    We received an important grant from the United States 
Department of Energy Office of Science to create the Joint 
BioEnergy Institute through a 5-year, $125 million grant. 
Another important effort is the creation of the Energy 
Biosciences Institute, a collaboration between ourselves, the 
Lawrence Berkeley National Laboratory, the University of 
Illinois at Urbana-Champaign, and the global energy 
corporation, BP.
    The institute is funded by--and this is unprecedented--a 
$500 million 10-year grant to UC Berkeley and our partners by 
BP, awarded in 2007. The purpose is primarily to explore and 
develop biofuels beyond the corn to ethanol paradigm.
    Additionally, scientists from UC Berkeley and the Lawrence 
Berkeley National Laboratory has been developing a bold 
research agenda called Helios, exploring solar energy devices 
from photovoltaics to microorganisms, including 
nanotechnologies to produce cheaper and more efficient solar 
cells.
    Today, Berkeley has emerged as a leading world center on 
energy research and education with an annual research budget of 
about $100 million per year through unprecedented public-
private partnerships.
    We have also been aggressive with measures to reduce 
greenhouse gas emissions on campus. Under the Cal Climate 
Action Partnership, which is a coalition of students, faculty 
and staff of the administration, we have undertaken a 
feasibility study, and based on sound analysis and actual 
policy, have committed to a target of reducing greenhouse gas 
emissions on campus to 1990 levels by 2014. This is 6 years 
ahead of the State's mandated reduction. Our strategies for 
achieving this ambitious target include increasing the 
efficiency of our energy usage, greening our electricity 
supply, and promoting sustainable transportation.
    Buildings account for over 70 percent of campus emissions. 
Projects to reduce emissions include large scale lighting 
retrofits, building recommissioning, making our heating, 
ventilation and air conditioning systems more efficient, and 
deploying additional onsite renewable energy production.
    Our plan also contains efforts that are indirectly related 
to energy usage, and also have enormous impact on resource 
conservation such as water conservation, minimizing waste, and 
purchasing greener products.
    These actions are supported by a formal campus policy 
entitled the Statement of Commitment to the Environment, and 
the recent appointment of a Director of Sustainability. Many of 
these efforts to mitigate UC Berkeley's climate footprint have 
been led by our students, who are a new generation passionately 
committed to solving the world's energy needs in both a clean 
and socially responsible way.
    Berkeley students recently voted a $5 add-on student fee 
increase to fund sustainability projects on campus. The 
Berkeley Energy and Resources Collaborative is a unique student 
community that brings together hundreds of students, professors 
and industry and government leaders on issues of energy and 
resources at Berkeley.
    Our students are acutely aware that one billion people on 
this planet have no access to modern forms of energy and they 
live on 50 cents per day or less. These populations will suffer 
devastating effects if global climate change continues to 
progress at its current rate. Our students understand that how 
we deal with these challenges will transform humankind's 
relationship with the environment and change the way that we 
drive the global economy. Universities must lead this 
transformation.
    [The prepared statement of Mr. Birgeneau follows:]

    [GRAPHIC] [TIFF OMITTED] T5526.001
    
    [GRAPHIC] [TIFF OMITTED] T5526.002
    
    [GRAPHIC] [TIFF OMITTED] T5526.003
    
    [GRAPHIC] [TIFF OMITTED] T5526.004
    
    [GRAPHIC] [TIFF OMITTED] T5526.005
    
    [GRAPHIC] [TIFF OMITTED] T5526.006
    
    [GRAPHIC] [TIFF OMITTED] T5526.007
    
    [GRAPHIC] [TIFF OMITTED] T5526.008
    
    [GRAPHIC] [TIFF OMITTED] T5526.009
    
    [GRAPHIC] [TIFF OMITTED] T5526.010
    
    [GRAPHIC] [TIFF OMITTED] T5526.011
    
    [GRAPHIC] [TIFF OMITTED] T5526.012
    
    [GRAPHIC] [TIFF OMITTED] T5526.013
    
    [GRAPHIC] [TIFF OMITTED] T5526.014
    
    [GRAPHIC] [TIFF OMITTED] T5526.015
    
    [GRAPHIC] [TIFF OMITTED] T5526.016
    
    [GRAPHIC] [TIFF OMITTED] T5526.017
    
    [GRAPHIC] [TIFF OMITTED] T5526.018
    
    [GRAPHIC] [TIFF OMITTED] T5526.019
    
    [GRAPHIC] [TIFF OMITTED] T5526.020
    
    [GRAPHIC] [TIFF OMITTED] T5526.021
    
    Senator Klobuchar. Thank you very much.
    Dr. Johnson.

  STATEMENT OF JACQUELINE JOHNSON, CHANCELLOR, UNIVERSITY OF 
                       MINNESOTA, MORRIS

    Ms. Johnson. Thank you, Senator Klobuchar, members of the 
Committee. In the spirit of full disclosure, I suppose I need 
to begin by saying that I have absolutely no connection to Yale 
University, and I do hope you won't hold that against me.
    Senator Craig. That is very appropriate at this moment, 
Doctor.
    [Laughter.]
    Ms. Johnson. Thank you very much for inviting me to address 
the Committee on behalf of my campus. In the year 2010, the 
University of Minnesota, Morris, will be carbon-neutral. We 
will have accomplished this reduction of greenhouse gas 
emissions through the onsite generation of nearly all of our 
electrical and thermal needs using renewable, sustainable local 
resources.
    How is this possible, you ask? I am about to tell you. 
Minnesota, Morris, one of five campuses of the University of 
Minnesota system, is a decidedly rural, residential public 
liberal arts college of 1,700 students. On a hill overlooking 
our prairie campus, a 1.65 megawatt wind turbine currently 
powers 50 percent of our campus buildings. It is the first 
turbine of its kind to be constructed at a public university, 
and it has been in operation since Earth Day 2005.
    Tucked behind our campus physical education center, a small 
unobtrusive building is currently under construction. It will 
house our biomass gasification plant scheduled for its first 
burn in May of this year. By burning locally procured non-food 
based biofuel feedstocks, principally cornstover--if you wonder 
what that is, it is the stocks of the corn--and mixed prairie 
grasses, we will essentially replace our natural gas supply and 
our natural gas dependency.
    In addition to providing a minimum of 80 percent of campus 
heating needs, we anticipate that this plant will put 
approximately $500,000 back into the local economy annually. 
Thus, instead of sending dollars out of State to purchase 
natural gas, we will deposit these resources into the pockets 
of area citizens.
    But that is not all. In the fall of 2008, we will add a 
steam turbine to this gasification system. Operating on the 
green steam, which is a product of the gasification process, 
the steam turbine will produce electricity for us on those days 
when the wind isn't blowing and it provides a redundant source 
of electrical power that goes back into the grid on those windy 
days that are the hallmark of the prairie. This same green 
steam that provides heat for our campus in the winter will 
connect to an absorption chiller in the summer to cool our 
buildings.
    And there is more. In the spring of 2009, we will add a 
second wind turbine on the hill which when it is operational 
will provide the remainder of our electrical needs and then 
some, eventually allowing us to put the excess electricity 
produced on our campus back onto the grid.
    Of course, like many American colleges and universities, we 
are taking other steps to reduce our greenhouse gas emissions. 
Our fleet includes hybrid and zero-emission vehicles. We 
recycle. We conserve. We have an active local foods initiative. 
We are designing new and renovating old buildings with 
attention to LEED specifications.
    How does this fit into our academic mission and our 
undergraduate liberal arts focus? Our students have been and 
are at the forefront of our green initiatives. They are active 
participants in studying the impact of these initiatives 
through an interdisciplinary studies major and of course a 
number of other majors as well, a robust undergraduate research 
program, service learning, and a variety of active internships. 
Students work directly with Morris faculty. They present 
nationally at conferences. They co-author papers with faculty 
members. They are our best spokespersons.
    How have we managed financially and are we saving money? 
Our work is financed through investments made by the University 
of Minnesota system, whose regents in 2004 adopted a system-
wide policy related to sustainability. Our work is also 
supported through investments made by the State of Minnesota. 
In addition, we have received grants from the U.S. Department 
of Energy and from the U.S. Department of Agriculture.
    In December 2007, we were authorized by the Internal 
Revenue Service to issue three clean renewable energy bonds and 
we are currently in the process of negotiating an energy 
service contract. We will have achieved our goal through an 
integrated set of financial tools.
    Do these investments save us money? The answer is both yes 
and it depends. For example, as long as the price of natural 
gas stays at or above $8 per BTU, we save money by using 
biomass gasification. While CREBs are no-interest bonds, they 
still must be paid back. We don't have deep pockets or abundant 
resources, just imagination, vision and resolved.
    Moreover, we are spending close to home. We are reinvesting 
dollars in rural America. And we have only just begun. We 
believe that the work happening on our campus provides 
prototypes for transforming the future of rural America in a 
way reminiscent of the Rural Electrification Act of the 1930's. 
We believe that this onsite renewable electric and thermal 
generation system provides a model not only for other colleges 
and universities, and for small communities and for 
neighborhoods in the United States, but that it also has great 
relevance for developing countries, truly a model of global 
significance.
    We also have an obligation to use the investments that have 
been made in our campus infrastructure to train a new work 
force for a new economy, green collar jobs, career ladders that 
provide technical, intellectual and entrepreneurial pathways 
for the future. We believe that when we reach our goal in 2010, 
we will be the first college in the United States to have 
reduced greenhouse gas emissions in this way through onsite 
generation. BW, before wind, our fossil fuel footprint was 
12,000 tons of carbon dioxide per year. By 2010, we will have 
reduced that footprint to zero. We will have achieved carbon 
neutrality.
    I am just about finished, if I could have just a few more 
seconds here.
    I am thinking that some of you are listening to this and 
you are saying to yourselves, where on earth is Morris, 
Minnesota? So let me end my remarks by helping you to get your 
geographic bearings. The best way that I can think of to do 
this is by sharing with you a story that involves one of our 
alums, who is a University of Minnesota, Morris, graduate of 
course, and a graduate law degree from Georgetown. She 
currently sits as a Justice on the Minnesota State Supreme 
Court. This is Justice Lorie Gildea. She describes the location 
of the University of Minnesota, Morris, like this. She says: 
``It is west of Harvard, east of Stanford, and a whole lot 
closer to heaven.'' So we just thought you might enjoy that.
    [Laughter.]
    Ms. Johnson. University of Minnesota, Morris, students like 
Justice Gildea are outspoken and they are action-oriented. We 
encourage students and faculty to ask and answer the big 
questions of our time. Our work in reducing greenhouse gas 
emissions speaks directly to these characteristics and 
qualities.
    At the University of Minnesota, Morris, we provide a 
liberal arts living and learning environment that is literally 
both renewable and sustainable.
    Thank you very much.
    [The prepared statement of Ms. Johnson follows:]

    [GRAPHIC] [TIFF OMITTED] T5526.022
    
    [GRAPHIC] [TIFF OMITTED] T5526.023
    
    [GRAPHIC] [TIFF OMITTED] T5526.024
    
    [GRAPHIC] [TIFF OMITTED] T5526.025
    
    [GRAPHIC] [TIFF OMITTED] T5526.026
    
    [GRAPHIC] [TIFF OMITTED] T5526.027
    
    [GRAPHIC] [TIFF OMITTED] T5526.028
    
    [GRAPHIC] [TIFF OMITTED] T5526.029
    
    [GRAPHIC] [TIFF OMITTED] T5526.030
    
    [GRAPHIC] [TIFF OMITTED] T5526.031
    
    [GRAPHIC] [TIFF OMITTED] T5526.032
    
    [GRAPHIC] [TIFF OMITTED] T5526.033
    
    [GRAPHIC] [TIFF OMITTED] T5526.034
    
    [GRAPHIC] [TIFF OMITTED] T5526.035
    
    [GRAPHIC] [TIFF OMITTED] T5526.036
    
    [GRAPHIC] [TIFF OMITTED] T5526.037
    
    [GRAPHIC] [TIFF OMITTED] T5526.038
    
    [GRAPHIC] [TIFF OMITTED] T5526.039
    
    [GRAPHIC] [TIFF OMITTED] T5526.040
    
    [GRAPHIC] [TIFF OMITTED] T5526.041
    
    [GRAPHIC] [TIFF OMITTED] T5526.042
    
    [GRAPHIC] [TIFF OMITTED] T5526.043
    
    [GRAPHIC] [TIFF OMITTED] T5526.044
    
    [GRAPHIC] [TIFF OMITTED] T5526.045
    
    [GRAPHIC] [TIFF OMITTED] T5526.046
    
    [GRAPHIC] [TIFF OMITTED] T5526.047
    
    [GRAPHIC] [TIFF OMITTED] T5526.048
    
    [GRAPHIC] [TIFF OMITTED] T5526.049
    
    [GRAPHIC] [TIFF OMITTED] T5526.050
    
    [GRAPHIC] [TIFF OMITTED] T5526.051
    
    [GRAPHIC] [TIFF OMITTED] T5526.052
    
    [GRAPHIC] [TIFF OMITTED] T5526.053
    
    [GRAPHIC] [TIFF OMITTED] T5526.054
    
    [GRAPHIC] [TIFF OMITTED] T5526.055
    
    [GRAPHIC] [TIFF OMITTED] T5526.056
    
    [GRAPHIC] [TIFF OMITTED] T5526.057
    
    [GRAPHIC] [TIFF OMITTED] T5526.058
    
    [GRAPHIC] [TIFF OMITTED] T5526.059
    
    [GRAPHIC] [TIFF OMITTED] T5526.060
    
    [GRAPHIC] [TIFF OMITTED] T5526.061
    
    [GRAPHIC] [TIFF OMITTED] T5526.062
    
    Senator Klobuchar. Thank you, Chancellor Johnson. You have 
done our State proud, and mostly you have made Senator Craig 
happy. So this is good.
    President Levin.

                STATEMENT OF RICHARD C. LEVIN, 
                   PRESIDENT, YALE UNIVERSITY

    Mr. Levin. Thank you, Senator Klobuchar and members of the 
Committee.
    Thank you, Chancellor Johnson, for that inspiring case 
study. I will point out, however, that your description of your 
institution being west of Harvard, east of Stanford, and closer 
to heaven also suits Yale.
    [Laughter.]
    Mr. Levin. There is no doubt that we have a problem. The 
Fourth Assessment Report of the Intergovernmental Panel on 
Climate Change concluded last year that in the absence of 
corrective measures, global temperatures are likely to rise 
between one and 6 degrees centigrade by the end of the century, 
with the best estimates ranging between two and four degrees.
    Even a one degree increase will limit the availability of 
fresh water and cause coastal flooding in much of the world. 
Environmental damages and dislocation will be even more 
consequential if global temperatures rise by more than two 
degrees.
    Universities have four important roles to play in the 
effort to curtail global warming. First, we must continue to 
advance our understanding of climate change. As Brown President 
Simmons said, it is in universities that these effects were 
first discovered. We need to discern the effects of climate 
change on the economy and the environment, and also understand 
the consequences of taking corrective action.
    Second, universities must pursue research into carbon-free 
energy technologies such as solar, wind and geothermal power, 
as well as seek more efficient ways of using carbon-based fuels 
through improved building materials and design, and improved 
technologies for vehicles and power plants.
    Third, we must educate students who go on to become future 
leaders and influential citizens. At Yale, we take this part of 
our mission extremely seriously. We offer over 60 undergraduate 
courses focused on the environment. Our School of Forestry and 
Environmental Studies has for decades produced some of 
America's most influential environmental leaders. The study of 
the environment and sustainability is now embedded in the 
curriculum of our graduate schools of business, architecture 
and public health.
    Finally, universities can demonstrate to the Nation and to 
the world that substantial reductions in greenhouse gases are 
feasible and not prohibitively expensive. With 12,000 
employees, Yale is the third largest private employer in 
Connecticut. There are 11,000 students on our campus and we 
have an annual budget of $2.5 billion. We are a large 
organization by any standard, the equivalent of a Fortune 1,000 
company. We are large enough to be a model of responsible 
environmental practice for other universities and business 
organizations. We are large enough to demonstrate that 
greenhouse gas reduction is feasible and affordable.
    As Senator Whitehouse indicated, in these efforts to 
demonstrate best practices in limiting carbon emissions, we are 
also teaching our students, who are full participants in this 
campus-wide effort. We are teaching them how to be responsible 
citizens of the world. Together, we are learning how to balance 
near-term economic considerations against the long-term health 
of the environment and the well being of future human 
generations.
    We have committed to reducing the university's greenhouse 
gas emissions to 43 percent below our 2005 baseline by 2020. 
That is also 10 percent below 1990 levels. It is a goal that is 
within the range of estimates of what is required to keep 
global temperatures from rising two degrees centigrade. So far 
in the first 2 years of our program, we have reduced carbon 
emissions by 17 percent. To achieve this, we have retrofitted 
heating, ventilation and air conditioning systems in 90 of our 
roughly 300 buildings.
    We have installed thermally efficient windows in many of 
our largest existing buildings, and in all of the new buildings 
we have constructed in the last decade. We have acquired new 
power plant equipment and modified some existing equipment to 
achieve substantial savings in fuel consumption. We have used a 
mix of conventional and renewable fuels in our power plant and 
in our campus bus fleet.
    We have made a commitment that all of our new buildings 
will achieve a silver rating or better from the LEED building 
rating system. And engaging our students, we have reduced 
student electricity consumption by 10 percent in each of the 
last 2 years by sponsoring a competition among our residential 
colleges.
    Other measures currently in the works should yield an 
additional 17 percent reduction in the next 3 years. These 
projects include the replacement of university-owned buses and 
trucks with hybrid models, a new co-generation plant, solar 
panels on selected buildings, and small wind turbines in the 
windiest sections of our campus.
    In most cases, the present value of the energy savings from 
these projects exceeds the initial investment. In other cases, 
we will invest to achieve carbon savings even at a modest net 
economic cost, in part to demonstrate the feasibility of new 
technologies, and in part, to encourage policy change that 
would price carbon correctly.
    I believe we can reach our greenhouse gas reduction goal at 
a cost of less than 1 percent of our annual operating expenses. 
In our view, this additional expense is justified and we 
believe the leadership of many other large organizations would 
come to the same conclusion.
    Other universities are joining us in aggressively reducing 
their carbon footprints. By the end of the academic year, I 
expect that every one of our sister institutions in the Ivy 
League will adopt its own concrete greenhouse gas reduction 
goal. These efforts are being replicated at colleges and 
universities across the Nation and around the world, as you 
have heard today.
    I hope the members of the Committee take heart in the 
knowledge that large organizations are concluding that they can 
and should take actions to reduce their carbon footprint 
significantly. I commend the Committee for its thoughtful 
consideration and approval of legislation that would establish 
a national system for reducing carbon emissions. Our future 
depends on it.
    Thank you.
    [The prepared statement of Mr. Levin follows:]

    [GRAPHIC] [TIFF OMITTED] T5526.063
    
    [GRAPHIC] [TIFF OMITTED] T5526.064
    
    Senator Klobuchar. Thank you so much to all of you. I am 
going to start with a few questions, and then turn it over to 
my fellow Senators. Of course, I will start with my chancellor 
here, Chancellor Johnson.
    Could you talk about how you came upon this, that Morris 
started to get into this so early? Was it something about your 
mission or what you have historically focused on as a campus?
    Ms. Johnson. I appreciate the question. Thank you very 
much, Senator Klobuchar. I think there are a number of reasons. 
One of the immediate reasons I believe had to do with the high 
cost of gas in 2000.
    I think another one of the reasons does really have to do 
with the kind of populist, and as I mentioned earlier, action-
orientation of the students, the faculty and staff who are on 
our campus. But you may not know that the University of 
Minnesota, Morris, started life as an American Indian boarding 
school in the late 1900's. It was founded by the Sisters of 
Mercy and turned over to the Federal Government who in turn in 
the early 1900's then established, after the American boarding 
school movement ended, an agricultural high school on the 
grounds.
    So when you come to the University of Minnesota, Morris, 
and I hope that you will, you will see a collection of historic 
buildings that are on the National Historic Registry that are 
part of that era of an agricultural high school. I like to 
think that the work that is happening on the prairie right now 
in Morris and at the university is really in some ways reaching 
back to those elements of our heritage. It is a new way of 
working collaboratively with partners in the region and with 
our agricultural community. Thank you.
    Senator Klobuchar. I was just thinking as I heard this, 
there are more opportunities for a huge wind turbine in a rural 
university than there is in an urban one, although we now have 
on in Minnesota in a suburban shopping mall. Are there other 
rural universities that you know of that are doing similar 
things across the Country?
    Ms. Johnson. Sure there are, including in the State of 
Minnesota. If you go to Northfield, you will see the big wind 
turbine there as well. And obviously, it depends on location. 
We actually are sponsoring it. We have a Center for Small Towns 
on our campus, and we will be hosting a symposium in June with 
special invitations having been issued to about 50 schools, 
private and public schools in the region who are very much like 
us, situated in rural communities.
    We believe that the work that is happening on our campus, 
it is about wind; it is it about biomass and gasification, but 
it really is as much about this integrated system of renewable 
energy onsite. We think that it isn't just the unique 
characteristics of our geography that there are others who can 
replicate and reproduce the same kind of thing.
    Senator Sanders had mentioned earlier the importance of 
dissemination, the importance of producing an educated 
citizenry. I think we are really in the midst of that in terms 
of building this research and demonstration platform on the 
prairie. We have good partners with an outreach center that is 
part of the University of Minnesota's agricultural school. We 
are lucky to be part of the system. We also have a wonderful 
partner with the USDA Agricultural Research Station that is in 
Morris. We talk about this as the research triangle, and we say 
North Carolina, move over. But we really have great 
opportunities in our small town to do some of these things and 
to share them.
    Senator Klobuchar. OK. Thank you.
    I have been trying to get Senator Sanders out to Minnesota, 
so maybe we will bring him out to the campus, although your 
campus may never be the same.
    President Levin, as you know, we are considering, and this 
Committee has voted through legislation with a cap-and-trade. 
It seems that carbon offsets will be an integral part of any 
kind of future cap-and-trade program. I know that Yale is 
utilizing them to meet your own emission goals. Could you 
elaborate on the role of offsets in your climate strategy and 
the kind of research that is going on at Yale with carbon 
offsets?
    Mr. Levin. Sure. Actually, except as a prize to the 
residential college that wins the energy savings competition, 
we are actually not focused on the purchase of carbon offsets 
in today's markets such as they are, in part because today's 
markets don't really reflect a scarcity price on carbon as 
markets will when the Lieberman-Warner bill is passed and 
enacted into legislation.
    We are committed to participating in direct investments in 
carbon offsets. In other words, we have looked at and are 
likely to make in the future investments in wind farms in areas 
remote to the campus that won't actually feed the campus, but 
will feed the New England power grid and will be incremental 
sources of renewable supply.
    So the carbon markets, as I suggest, really will work much 
better when they do reflect a true scarcity price. Right now, 
they do not, and in fact if one wanted to satisfy our large 
requirements, we could reach our 43 percent goal, which would 
require purchasing about 203,000 metric tons of CO<INF>2</INF> 
at a price that is actually fairly modest today, but that is 
not reflecting the true cost.
    Senator Klobuchar. Thank you very much.
    Chancellor Birgeneau, I am out of time here, but I have 
some great questions of you about your green rooms, your green 
dorm rooms or whatever they are. So we will come back on the 
second round.
    Senator Craig.
    Senator Craig. Thank you all very much.
    Clearly, our colleges and universities can lead in the 
areas that you are now speaking to, in the concept of 
university competition and the walled thinking and creating 
areas that our universities are supposed to be. The one thing 
that I have focused on is not distorting a marketplace or not 
creating artificial mechanisms, but truly allowing technology 
and the innovative mind to get there.
    What your colleges and universities are doing today is 
outside any law that Congress could ever create. You are 
grabbing the issue. You are taking the issue and you are 
running with it in a fair and responsible way, as are my 
colleges and universities.
    But let me have some fun with you for a moment. Let us turn 
to this weekend and March Madness and put our colleges and 
universities and our alumni to a test. Can we do that? So let 
me direct my questions, Madam Chair, to have some fun.
    Let me start with Cal Berkeley first. Now, listen up folks, 
because I want to get it accurate and I want to get it right. 
Cal Berkeley, 110 metric tons in 2006. Is that accurate? Excuse 
me, 210,000 metric tons in 2006.
    Mr. Birgeneau. I can't tell you if that is the exact 
number.
    Senator Craig. I believe that is correct. And you have 
23,482 undergraduate and 10,076 graduate students, 33,558 
students. All right. So your carbon footprint would be, under 
current day calculations, about 6.3 metric tons per student 
year. OK? Let's put that up.
    Now, we will go to you, Dr. Johnson. You do very well, by 
the way. You are going to score well here. You predict that you 
are a zero-emission campus by 2010.
    Ms. Johnson. That is right.
    Senator Craig. All right. And with what you have laid out, 
that is very possible. You also say that your footprint was 
12,000 metric tons before wind.
    Ms. Johnson. Yes.
    Senator Craig. About 12,000 tons for 1,700 students, and 
you were at 7.1 metric tons per student year.
    Ms. Johnson. That sounds probable.
    Senator Craig. OK. But you haven't won yet. Remember, we 
are going to play this game out right through to the final 
playoff.
    Now, Dr. Levin, your footprint today is roughly the same as 
Cal Berkeley's, is it not?
    Mr. Levin. That is right, about 220,000 metric tons right 
now.
    Senator Craig. Yes. However, your institution has one-third 
as many students, 11,000 students.
    Mr. Levin. That is correct.
    Senator Craig. All right. So your carbon footprint is three 
times as large as Cal Berkeley's. Is that correct?
    Mr. Levin. That is true. We are in a harsher climate and we 
have----
    Senator Craig. No excuses, now. No excuses. Remember, this 
is a playoff.
    Mr. Levin. We are in a harsher climate and we have much 
higher per capita Federal support for research than Berkeley, 
and research is----
    Senator Craig. Oh, you're competitive. Listen, we are going 
into the final stretch here so we are going to score you at 
19.1 metric tons per student year. OK?
    Mr. Levin. That is about right.
    Senator Craig. Now, in that case, we always like to degrade 
our Country as being the greatest emitter. So Yale is the 
United States of university emissions at this point.
    Mr. Levin. I think we are losing.
    Senator Craig. You are. You are losing.
    Mr. Levin. Right.
    Senator Craig. That is why I am so pleased to have you get 
with it.
    Now, we are going to score Boise State University, you 
know, that team with the blue turf that tipped upside down 
college football history here a year ago. Guess where they are 
going to come in, because we have the things that we like. We 
have hydro. We have wind. We have a little coal, very little 
nuclear yet. How are we going to score Boise State University 
as it relates to their carbon footprint per student per year?
    Voila. 2.7 metric tons per year Oh, those Broncos did it 
again.
    [Laughter.]
    Senator Craig. My point here is really quite simple, and it 
is as important for our Committee as it is for the witnesses 
before us this morning. When we talk about the totality of 
responsibility that our universities have, and we do, and you 
have demonstrated that, and by using this little exercise, not 
in any way am I attempting to degrade your efforts. That isn't 
the purpose.
    You are going to do what will really solve the climate 
change problem. We can manipulate markets here. We can command 
and control by public policy. But what is emerging out of this 
is a consciousness in America today that all new energy 
technologies have to be clean. It is really quite simple. We 
will accept nothing less than that.
    Now, in the midst of getting there, and it will take 
several decades to get there, the question is, how do we remain 
competitive? We have to continue an energy supply. There is no 
doubt about it. And we need to continue to grow if we are going 
to remain competitive. And that is the margin of frustration in 
between.
    So Madam Chair, as we look at Warner-Lieberman, as we 
ultimately decide a climate change policy, and hopefully we 
will not distort or damage markets or damage our 
competitiveness in the world marketplace. Where the market 
really is today is with these universities and what they will 
and their students will produce. That is what we will sell to 
the world. That is what we will make available to the world. 
And that is the course of future energy, and not us thinking we 
are so smart we can manipulate it and play games with it here.
    I thank you for your leadership. I thank you for being 
here. While I am not an alum of Boise State, Boise State is 
going to be awfully proud of me today, and they are going to be 
proud of you.
    Thank you.
    Senator Klobuchar. All right. Thank you, Senator Craig. 
Again, you could have invited Boise State and we hope we will 
have another hearing where we can give them their March Madness 
award.
    Senator Craig. Madam Chair, I just talked with the ranking 
member of the Committee and he said that if the Committee and 
the Chairman want to do a second hearing and give us the 
accurate lead time to scope and lay it out, we would be more 
than happy to participate. We just might bring one of Idaho's 
clean universities to play.
    Senator Klobuchar. Excellent. We look forward to it.
    Senator Craig. Thank you.
    Senator Klobuchar. Senator Sanders.
    Senator Sanders. Thank you.
    And for Yale University, what you need is a major river and 
a dam in New Haven. That will help you a whole lot. You can 
work on that.
    [Laughter.]
    Senator Sanders. I want to congratulate all of the campuses 
and the colleges and universities for what you are doing, but I 
agree with President Johnson that heaven is probably somewhere 
near rural America, and maybe in Vermont we share some of that 
as well. So I want to ask you a couple of questions because 
what you are doing sounds extraordinarily exciting. I would 
like to see that in Vermont. We are making a little bit of 
progress. We just haven't quite advanced as far as you have.
    Talk a little bit about the wind turbines, and talk a 
little bit about the financial implications of what you are 
doing, because as is always the case, the initial investment is 
what is significant, coming up with the money to buy the 
sustainable energy and then the payback period over a period of 
time. And then talk a little bit, and then I want the others as 
well, about what role do you think the Federal Government can 
play? It always seems to me to be a very sad State of affairs 
if people say, well, over a 20 or 30 year period, we can 
actually save money, but we don't have the money to make those 
investments right now, which is why we are working on 
legislation to help colleges and universities make those 
investments. Could you comment a little bit about that?
    Ms. Johnson. Thank you. I appreciate the question and also 
your leadership in terms of potentially providing some of these 
resources for colleges and universities around the Country.
    The wind turbines are not only expensive, the big ones that 
we are putting up, but they are also right now not very easy to 
find. That may be another kind of interesting issue 
legislatively. It is very difficult----
    Senator Sanders. Excuse me. Were you unable to locate that 
in the United States? Are you importing this?
    Ms. Johnson. We are in the process of identifying a second 
wind turbine. We hope to have that up about a year from now. 
The line is long for people who are trying to buy wind turbines 
and that is mostly going to private----
    Senator Sanders. If I could just interrupt you for a second 
to talk about what a pathetic State of affairs that is. I think 
all over this Country, people want to move in that direction 
and we can't even buy it because we are not even manufacturing 
these products in the United States, which is beyond 
comprehension. It is another issue. I didn't mean to interrupt 
you.
    Ms. Johnson. And one of the issues for Minnesota does have 
to do with Vestas, who was a manufacturer of wind turbines and 
who is looking to locate somewhere in the United States, and we 
would love them to come to Minnesota. But I think you are 
right. The pro formas that we have established, I mentioned in 
my remarks that we don't have a lot of resources. We don't have 
ourself, the University of Minnesota, Morris, a big endowment, 
so we don't have a lot of funds to invest. So we are relying, 
for example, for the second wind turbine on the CREBs, the one 
that we have been issued for that. We need to find the turbine.
    The pro formas, I believe, and I believe that material has 
been entered into the record, show us as paying back, as saving 
money, but using the money to pay back the investment over the 
course of something like 13 years. The average lifespan for a 
wind turbine is 20 years. So we think even with that sort of 
long payback period when we are using no-interest bonds to 
purchase the turbine, we will still have some years of good 
investment. I think the investment goes beyond just the dollars 
that we are saving. The investment, of course, is also in the 
environment and I think that is an important piece of it as 
well.
    So we think of that not just as an investment in the 
materials themselves, but also as an investment in the earth, 
if you will. That seems important. So I think the questions of 
financing are really important. I think that the opportunities 
for the Senate, for local legislators are there to find ways to 
assist those who want to do alternative and renewable energy 
sources. I think one of the challenges also has to do with 
getting energy back onto the grid and some of the resistance to 
that. We face that locally. That is more of a local issue. If 
you have excess energy, how do you get it onto the grid so that 
people can use renewable energy supplies there?
    There are any of a number of policy implications that are 
connected to this, but again, including the implications that 
are related to being able to purchase a single wind turbine, 
which is where we are. Perhaps there are ways that people could 
organize collectively so nonprofit organizations, higher 
education organizations, could collaborate to purchase multiple 
wind turbines, and that might make it both more feasible 
financially, but also more possible for us actually to find a 
turbine.
    Senator Sanders. If I could ask the same question to our 
friends from Yale or Berkeley. Yes?
    Mr. Levin. Yes. I just want to add that I agree with all of 
what Chancellor Johnson is saying. Some of these concerns, like 
the limited supply of the turbines, is presumably going to be 
short term. Capacity will ramp up if there is demand for the 
product.
    Let me speak to the financing concern and tie it to why we 
need a cap and trade system with a market price on carbon. Wind 
power may look attractive today at the high prices we have for 
substitute fossil fuel energy production or electricity 
production, but there is of course a risk. One reason why it 
might be difficult to finance a wind turbine by going into the 
debt markets would be that there is no way to hedge the risk of 
fluctuating prices.
    But if you have a cap-and-trade system, a market price of 
carbon, and a set of futures markets for carbon prices, then 
there would be a way. People prepared to take the risk could 
then be the buyers of risk, and the institutions that are 
investing and their direct creditors could hedge that risk, so 
it would make capital more available through the markets.
    I am very much a fan of Senator Craig in this respect. I 
think we ought to rely on market mechanisms as much as 
possible.
    Senator Craig. Excuse me, Senator.
    I think your logic there fits. I mean, it clearly does. The 
problem we have with wind turbines today is that we were not 
producers of the kind that President Johnson talks about. They 
were European. They are now here and they are being produced 
here. But because of our tax credit, in all fairness, we are 
subsidizing wind today and it has made it popular. I am not 
criticizing that. I support it. But it has created a demand 
where you do stand in line.
    I think your concern about non-profits, we would want to 
watch that very closely because what I don't want to happen is 
for everybody to become a non-profit then, to try to get to the 
front of the line. I think the marketplace, you are right 
President Levin, it is going to work this thing out. I don't 
decry it, Senator Sanders, because we simply weren't there. We 
are now there very aggressively and they are being produced in 
the Midwest. The factories are going up.
    Senator Klobuchar. Senator Sanders, do you want to respond 
before Chancellor Birgeneau answers?
    Senator Sanders. Well, I just did want to suggest that, as 
I understand it, we helped develop the initial wind technology, 
and for a variety of reasons that has gone to other countries. 
I think that speaks to the decline of manufacturing in this 
Country in general.
    But let UC Berkeley answer, please.
    Mr. Birgeneau. I would like to address the innovation and 
American ingenuity part of the challenge, which is that 
ultimately the U.S. must lead in this area, which means that we 
have to take advantage of the phenomenal research talent that 
we have in this Country and the passion of young people. In 
this new program, Energy Biosciences Institute, the global 
energy corporation, BP, which is based in London, was under 
tremendous pressure to fund that research either at Cambridge 
University or Imperial College.
    They ultimately decided to send the money overseas to the 
State of California because of the entrepreneurial character of 
the Bay Area and the scientific power of the University of 
Illinois Urbana-Champaign, a great Midwest university, combined 
with Berkeley and Lawrence Berkeley National Lab, which is a 
Department of Energy laboratory.
    Similarly, the Department of Energy is investing now, and 
has under-invested in energy research, and we need to see a 
significant growth in support of energy research both at the 
national laboratories and in our universities.
    Finally, we have a generation of students who are 
absolutely passionate about sustainable energy. Much of my own 
knowledge comes not from our technical experts, but from our 
students. I think it is time for government agencies, perhaps 
the National Science Foundation, to create a new set of 
graduate fellowships which will be sustainable energy 
fellowships. There will be a queue a mile long of the most 
talented young people in the Country who would love to have 
fellowships of that sort in which they could devote their 
careers to solving this problem for the United States.
    Senator Sanders. Good idea. OK.
    Thank you very much, Madam Chairman.
    Senator Klobuchar. Thank you, Senator Sanders.
    Before I go to some other questions, on behalf of Senator 
Boxer, I ask unanimous consent to enter into the record a 
statement from the University of California at San Diego. 
Hearing no objection, so ordered.
    [The referenced document follows:]
    Senator Klobuchar. Senator Craig.
    Senator Craig. What happens among our very competitive 
institutions when they compete head to head? I just turned to 
staff and said, after you entered and for Senator Boxer's 
benefit, ``and the competition builds!'' We are going to have a 
great second hearing. I look forward to it.
    Senator Klobuchar. It will be a lot of fun. I just can't 
wait.
    OK, Chancellor Birgeneau, you mentioned in your testimony, 
just in fact in your last statement, about the BP grant. I 
think some of that is going to research on cellulosic ethanol. 
Are you familiar with that? It is very important in our State 
as we build and expand into cornstover, as the Chancellor 
pointed out, and switchgrass and prairie grass. Could you talk 
a little bit about that research?
    Mr. Birgeneau. Sure, absolutely. The goal is to go beyond 
ethanol and to go beyond the corn to ethanol paradigm, to 
basically take the incredible progress that we have made in 
modern molecular medicine and take that knowledge base and 
transform it into the agricultural world. So there has been 
some work done already, for example, at our partner University 
of Illinois Urbana-Champaign, but the relative development of 
the technology on the plant side compared with the human body 
side is actually quite disproportionate.
    Our goal is in essence to use modern genetic techniques to 
create artificial termites, so we would like to develop 
organisms which will very efficiently convert, let's say, 
miscanthus grass, which is a grass that grows well in the 
Midwest in the United States, including in your State, an 
incredibly high-density, low-fertilizer, low-water, perennial, 
and grows to a height of 12 feet.
    If we can develop the chemistry that will enable us to 
efficiently convert those kinds of grasses, break down the 
lignin and the cellulose into their constituent sugars, and 
then ultimately into alcohols, which will probably be other 
than ethanol, we could conceivably replace 30 percent of 
petroleum products by naturally produced biofuels. That would 
have a huge impact on the U.S. economy, and this, of course, is 
carbon-neutral.
    Senator Klobuchar. Very good. My question about the Green 
Living Project, and this came out of your written testimony 
where you talked about the fact that you can convert these 
student resident hall rooms to be environmentally friendly 
without costing a huge sum of money. Could you explain how a 
green room differs from a traditional dorm room?
    Mr. Birgeneau. This is actually a 100 percent student-
driven initiative, so I gave a little bit of seed funding to 
our students and said, do something creative. So they just 
looked very carefully at the way their rooms worked, whether or 
not the computers turned off automatically when they left the 
room; whether or not the lights turned off automatically; 
whether or not they had waterless toilets; whether or not they 
had appliances which were green.
    Just by integrating a whole series of steps, not any single 
one critical, but the integral is that they then have been able 
to convert their dormitory rooms. This has been student-driven, 
so that there are green rooms which are extraordinarily energy 
efficient. This is now leading into a large-scale research 
project at Berkeley of how we design homes so that homes are 
energy neutral.
    Senator Klobuchar. Very good.
    President Levin, you mentioned that one of the most 
effective steps that Yale has taken is to retrofit the heating, 
ventilation and air conditioning systems in 90 of Yale's 
roughly 300 buildings. How many of these 90 buildings are 
historic or older buildings? How do you do this in a cost-
effective way?
    Mr. Levin. Some of them are challenging. Some of our stone 
neo-gothic buildings are really not very feasible for 
undertaking this approach. But for the more modern buildings, 
it is actually quite cost-effective. This has a positive 
economic return at current energy prices to just go through and 
improve the control systems, introduce centralized controls 
over HVAC and lighting as well so that things switch off 
automatically when people leave the room, have motions sensors 
and adjust temperatures appropriately when the building is 
occupied and not occupied.
    These are investments that actually yield a payoff at 
today's high prices of energy.
    Senator Klobuchar. Thank you very much.
    Senator Craig.
    Senator Craig. Again, thank you all very, very much.
    Let me ask a generic question of you, all three, because 
clearly Congress in response to the American consumer and the 
environmental realities is awakening and that is appropriate. 
We should be. And that really started in 2005 when we created 
the new Energy Policy Act that is driving a variety of 
resources out there today. Again, we spoke to it last year, for 
example, when the discussion on cellulosic ethanol began we 
bumped that up to 32-plus billion gallons annualized, 
recognizing that a fair or larger portion of that total 
production ultimately would have to come out of cellulosic 
technologies.
    At the same time, as we deal with intermittent energy 
sources, and of course you at your university, Dr. Johnson, 
mentioned that you are doing feedstocks, biomass energy. I 
guess I would call that baseload, and the wind is intermittent. 
Because we don't have storage capacities today for 
intermittent, we have to have backup because the wind does one 
thing that we know well. It doesn't blow all the time, and yet 
we ought to be able to grab it when it does. Hopefully someday 
we will be able to store it, and that will help us feed and 
integrate both baseload and intermittent sources into a grid 
system.
    But having said that, and I trust all of you have looked at 
Warner-Lieberman. Some version of climate change legislation 
within the next few years will become public policy in this 
Country. It may not be that per se, but there are pieces of it 
that will probably become that.
    Can we arrive at a reasonable climate change policy that 
drives markets and investments without nuclear energy? How 
would the three of you respond to that? As the No. 2 nuclear 
research university in the Nation, how would you respond to 
that?
    Mr. Birgeneau. I am highly biased because 10 years ago I 
chaired a committee for the Department of Energy urging the 
U.S. Government to sustain programs in research in nuclear 
energy and nuclear reactors for other kinds of research.
    Senator Craig. That is right.
    Mr. Birgeneau. So I am a passionate supporter of nuclear 
energy. I think it should be a critical part of our energy 
strategy. Because of the disappearance of funding in that area 
in the 1990's, nuclear engineering departments like ours at 
Berkeley really suffered.
    Senator Craig. You almost lost it.
    Mr. Birgeneau. We are in the process of revitalizing it. 
Fortunately, we didn't lost it and we are revitalizing it.
    Senator Craig. You and MIT are leaders in those areas of 
research and development. Thank you.
    Dr. Johnson.
    Ms. Johnson. Well, I am not a physicist, so I feel a little 
bit out of my league here. But just to come back to the first 
element of your question, I think that has to do more broadly 
with can we have an impact on climate change. I think the 
answer is decidedly yes.
    I want to just come back again to the concept to make sure 
that stays in front of people, and that is the concept that 
drives the University of Minnesota, Morris, and that is an 
integrated system of energy. We have researchers at the 
outreach center, and again I am not a physicist so I am out of 
my league here, but who are working on just exactly the 
capacities that you are talking about--wind, hydrogen, the 
possibility of storing energy so that it isn't just episodic 
and dependent on when the wind blows. But if you have ever been 
on the prairie, there probably 3 days out of the year that the 
wind doesn't blow.
    Senator Craig. I have been there.
    Ms. Johnson. So I think again the number of things that 
have been referred to here that have to do with the interests 
of young people, of college students in this, the educated 
citizenry, I think it is certainly the case that we can have, 
and as you see on our campus, that we are having a positive 
impact.
    I would like to come back in 2 years and do your final four 
again.
    Senator Craig. We will do it.
    Ms. Johnson. I am not sure what the status is going to be.
    Senator Craig. We are awfully close to deciding a total 
rating system.
    [Laughter.]
    Ms. Johnson. I think you might have a new winner.
    Senator Craig. Well, I don't suggest that you dodged my 
initial question, then, because you have handled it well. I 
think it is full integration. Thank you.
    Dr. Levin.
    Senator Klobuchar. President Levin.
    Mr. Levin. Let me say first that I think supporting all of 
these technologies--nuclear, biomass, solar, wind is important 
because we can't know in advance which will pay off most. So 
giving appropriate support to advancing them all is important. 
Price signals through a cap and trade system actually do part 
of that. I think direct efforts and subsidies are probably 
necessary as complements, at least in these years.
    Nuclear poses a particular challenge. I agree with 
Chancellor Birgeneau that we ought to be supporting research in 
that area. But actually the challenge is more than research in 
the nuclear area because we will have nuclear plants coming 
offline in the next 20 or 30 years, requiring substantial 
investment to stay online.
    Senator Craig. That is right.
    Mr. Levin. In fact, given the long lags in actually 
designing and getting a nuclear plant through the regulatory 
and political barriers because of siting controversies, we will 
have a very hard time, even if we ran full blast starting 
today, to actually keep our nuclear capability as high as it is 
today 20 years from now.
    I agree with you. We have to address this. Nuclear plants 
are very efficient baseload electricity plants, and they are 
completely green. It is very logical to be working on them.
    Senator Craig. And of the three universities, yours, Yale, 
probably is the larger consumer of nuclear-based electricity 
than the other two. That is a rather cursory glance. So the 
reality you talk about of sustaining what we have and 
maintaining its efficiency and its safety as it ages, we have 
addressed that to some extent in the 2005 Policy Act.
    Frankly, just before we left for the Easter Recess, we did 
something else that advances that. We brought two new 
commissioners to the Nuclear Regulatory Commission. One of them 
is a former staffer of mine, Commissioner Kristine Svinicki, 
formerly from Idaho Falls, Idaho. They are now in the process 
of ramping up in a way that will change those timelines 
substantially as it relates to retrofitting and/or bringing new 
greenfield production facilities online.
    To Cal Berkeley, pick up the phone and call DOE, because 
there is a new opportunity there, Chancellor. Last year, 
Senator Bingaman, Senator Domenici and I authored it we put in 
legislation that was signed by the President and now we are 
seeking to fund the Nuclear Science Talent provision to start 
bringing the incentives at universities back, to take those 
young bright minds through their undergraduate degrees to the 
masters and the doctorates in those fields, to broaden, if you 
will, the base of that talent, both for our Country and the 
world. So the role Berkeley plays, along with MIT, and my 
universities in Idaho is now working directly with the Idaho 
National laboratory and the Center for Advanced Energy Studies.
    America has blinked and awakened to 20 years of abstinence, 
if you will, in the energy field. They are not very happy with 
us because of the prices involved and the realities that are 
about. So hopefully, with our universities playing very 
important roles in this, like the great Country we are, we will 
overcome it.
    Thank you, all three, very much for being with us.
    Senator Klobuchar. I wanted to thank all of you for coming, 
and just let you know we have had four Senators here, which 
isn't bad for a smaller hearing. I think there is just a lot of 
interest that is generated. Clearly, we are going to have 
college and university hearing II as well.
    I also wanted to thank you for the work you have done in 
being leaders in this area, with not only the campus, but in 
selling this to your alumni and to bringing the students on 
board. In my own observations getting around our State, it is 
really the younger people that have been leading the way. I am 
sure you have all seen this from 8 year olds with penguin 
buttons, to college kids that have shown up here in the Hart 
Building with green helmets for green jobs, chanting in the 
bottom of the Hart Building, but it has really been the 
students that have been leading the way.
    We appreciate your leadership and look forward to working 
with you in the years to come. Thank you very much.
    Thank you, Senator Craig, as well.
    [Whereupon, at 11:15 a.m. the committee was adjourned.]
  

                                  <all>

</pre><script data-cfasync="false" src="/cdn-cgi/scripts/5c5dd728/cloudflare-static/email-decode.min.js"></script></body></html>
